NO. 20-488

In the
Supreme Court of the United States
SANGEETA BHARGAVA,

Petitioner,
v.
MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS, INC. (MERS),

Respondent.
__________________________

On Petition for a Writ of Certiorari to the
Court of Appeal of the State of California, Sixth Appellate District
SUPPLEMENTAL BRIEF TO
PETITION FOR WRIT OF CERTIORARI

THOMAS SPIELBAUER, ESQ.

COUNSEL OF RECORD

SPIELBAUER LAW OFFICE
200 SOUTH MARKET STREET
SUITE 1001
SAN JOSE, CA 95113
(408) 213-7440
THOMAS@SPIELBAUER.COM

COUNSEL FOR PETITIONER

NOVEMBER 13, 2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

1

SUPPLEMENTAL BRIEF TO
PETITION FOR WRIT OF CERTIORARI
Petitioner submits this Supplement to her Petition
for a Writ of Certiorari which she filed with this
Supreme Court on October 9, 2020 and which was
docketed on October 12, 2020. She does so pursuant to
Rule 15. She submits this Supplement to emphasize to
this Court a critical feature of this matter.
As the Court of Appeal decision reflects at footnote
2, a foreclosure sale of the property of 11860 Francemont Avenue, Los Altos Hills, CA 94022 has not occurred.
Footnote 2 reads, “The trustee’s sale did not proceed on
that date. By order dated November 2, 2016, the trial
court denied Bhargava’s application for a preliminary
injunction against Bank of America as moot, based on
Bank of America’s representation that it would not
hold a trustee’s sale while the action was pending.”
[App 6a.] A copy of the trial court’s order denying the
request for a preliminary injunction accompanies this
supplemental.
Petitioner’s situation is thus having a suffered a
harm created by a pending non-judicial foreclosure of
her home, but before a sale occurs. Petitioner falls into
the netherworld created by the uncertainty of Yvanova
v. New Century Mortgage, 62 Cal.4th 919 (2016).
On one hand there is Saterbak v. JPMorgan Chase
Bank, N.A., 245 Cal.App.4th 808 (2016) denying judicial
standing, and access, until a non-judicial foreclosure
sale is completed.
On the other hand, judicial standing, and access,
prior to sale is permitted by Lundy v. Selene Finance,

2
LP 2016 WL 1059423 (N.D. 2016) and Garfinkle v.
Superior Court (Wells Fargo Bank) (1978) 21 Cal.3d 268.
This submission in no way prejudices MERS.
Petitioner believes that MERS would acknowledge this
factual circumstance to be true.
The litigation is pending in the Santa Clara County
Superior Court against the remaining defendant, Bank
of America, N.A.. The case has not yet been set for trial
as to BANA.
Respectfully submitted,
THOMAS SPIELBAUER, ESQ.

COUNSEL OF RECORD

SPIELBAUER LAW OFFICE

200 SOUTH MARKET STREET
SUITE 1001
SAN JOSE, CA 95113
(408) 213-7440
THOMAS@SPIELBAUER.COM

COUNSEL FOR PETITIONER
NOVEMBER 13, 2020

Pet.Supp.App.1a

ORDER AFTER HEARING
OF THE SUPERIOR COURT OF CALIFORNIA
(NOVEMBER 1, 2016)
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SANTA CLARA
________________________
SANGEETA BHARGAVA,

Plaintiff,
v.
BANK OF AMERICA, NA, ET AL.,

Defendants.
________________________
Case No. 16-CV-295113
Before: The Hon. William J. ELFVING,
Judge of the Superior Court.
On November 1, 2016 in Department 3, Honorable
William J. Elfving, Judge Presiding, there was a
hearing on the Order to Show Cause Re: Preliminary
Injunction by Plaintiff Sangeeta Bhargava. Having
considered the papers on file and the arguments of
counsel, the court rules as follows:
The Application for a Preliminary Injunction is
DENIED. Plaintiff cannot show that she will suffer
interim harm because there is no pending trustee’s
sale. Defendant Bank of America, NA. has represented

Pet.Supp.App.2a
that there will be no trustee’s sale during the course of
this litigation. The remedy that Plaintiff seeks is moot.
The temporary restraining order is dissolved.
/s/ William J. Elfving
Judge of the Superior Court

November 1, 2016

